SCHOOL OF LAW
THE UNIVERSITY OF TEXAS AT AUSTIN
727 East Dean Keeton Street | Austin, Texas 78705-3299 | (512) 475-9198 | svladeck@law.utexas.edu
STEPHEN I. VLADECK
A. Dalton Cross Professor in Law

February 20, 2020
The Honorable Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543-0001
Re:

United States v. Briggs, No. 19-108
United States v. Collins, No. 19-184

Dear Mr. Harris:
I am counsel of record for the Respondents in the above-captioned
cases, which are scheduled for oral argument on Monday, March 23, 2020.
Respondents’ merits brief, which was filed on February 12, referred to
a 2003 amendment to Article 43(b) of the Uniform Code of Military Justice,
10 U.S.C. § 843(b), as being “of no moment here.” Resp. Br. 9. In light of the
brief of the National Association of Criminal Defense Lawyers as amicus
curiae in support of Respondents, see NACDL Amicus Br. 8–10, Respondents’
characterization of the 2003 amendment’s relevance may have been incorrect.
For the Court’s convenience, I am attaching a copy of the relevant provision
of that statute — section 551 of the National Defense Authorization Act for
Fiscal Year 2004 — to this letter.
To ensure that Petitioner has an adequate opportunity to address the
2003 amendment in its reply brief and/or at oral argument, I have already
brought the above to the attention of counsel for the government. I would
appreciate it if you would distribute this letter and attachment to the
Members of the Court.
Sincerely yours

Stephen I. Vladeck
cc: Hon. Noel Francisco, Counsel of Record for Petitioner

117 STAT. 1392

PUBLIC LAW 108–136—NOV. 24, 2003

Public Law 108–136
108th Congress
An Act
Nov. 24, 2003
[H.R. 1588]

National Defense
Authorization
Act for Fiscal
Year 2004.

To authorize appropriations for fiscal year 2004 for military activities of the Department of Defense, for military construction, and for defense activities of the Department of Energy, to prescribe personnel strengths for such fiscal year for the
Armed Forces, and for other purposes.

Be it enacted by the Senate and House of Representatives of
the United States of America in Congress assembled,
SECTION 1. SHORT TITLE.

This Act may be cited as the ‘‘National Defense Authorization
Act for Fiscal Year 2004’’.
SEC. 2. ORGANIZATION OF ACT INTO DIVISIONS; TABLE OF CONTENTS.

(a) DIVISIONS.—This Act is organized into three divisions as
follows:
(1) Division A—Department of Defense Authorizations.
(2) Division B—Military Construction Authorizations.
(3) Division C—Department of Energy National Security
Authorizations and Other Authorizations.
(b) TABLE OF CONTENTS.—The table of contents for this Act
is as follows:
Sec. 1. Short title.
Sec. 2. Organization of Act into divisions; table of contents.
Sec. 3. Congressional defense committees defined.

DIVISION A—DEPARTMENT OF DEFENSE
AUTHORIZATIONS
TITLE I—PROCUREMENT
Subtitle A—Authorization of Appropriations
Sec.
Sec.
Sec.
Sec.

101.
102.
103.
104.

Army.
Navy and Marine Corps.
Air Force.
Defense-wide activities.
Subtitle B—Army Programs

Sec. 111. Stryker vehicle program.
Sec. 112. CH–47 helicopter program.
Subtitle C—Navy Programs
Sec. 121. Multiyear procurement authority for F/A–18 aircraft program.
Sec. 122. Multiyear procurement authority for Tactical Tomahawk cruise missile
program.
Sec. 123. Multiyear procurement authority for Virginia class submarine program.
Sec. 124. Multiyear procurement authority for E–2C aircraft program.
Sec. 125. Multiyear procurement authority for Phalanx Close In Weapon System
program.
Sec. 126. Pilot program for flexible funding of cruiser conversions and overhauls.

VerDate 11-MAY-2000

13:46 Dec 05, 2003

Jkt 029139

PO 00136

Frm 00002

Fmt 6580

Sfmt 6582

E:\PUBLAW\PUBL136.108

APPS10

PsN: PUBL136

PUBLIC LAW 108–136—NOV. 24, 2003

117 STAT. 1481

SEC. 548. DEPARTMENT OF DEFENSE JOINT ADVERTISING, MARKET
RESEARCH, AND STUDIES PROGRAM.

10 USC 503.

(a) PROGRAM AUTHORIZED.—The Secretary of Defense may carry
out a joint advertising, market research, and studies program to
complement the recruiting advertising programs of the military
departments and improve the ability of the military departments
to attract and recruit qualified individuals to serve in the Armed
Forces.
(b) FUNDING.—Of the amount authorized to be appropriated
by section 301(5) for operation and maintenance for Defense-wide
activities, $7,500,000 may be made available to carry out the joint
advertising, market research, and studies program.
SEC. 549. LIMITATION ON FORCE STRUCTURE REDUCTIONS IN NAVAL
AND MARINE CORPS RESERVE AVIATION SQUADRONS.

The Secretary of the Navy may not reduce or disestablish
a Naval Reserve or Marine Corps Reserve aviation squadron before
February 1, 2004.

Subtitle E—Military Justice Matters
SEC. 551. EXTENDED LIMITATION PERIOD FOR PROSECUTION OF
CHILD ABUSE CASES IN COURTS-MARTIAL.

Subsection (b) of section 843 of title 10, United States Code
(article 43 of the Uniform Code of Military Justice), is amended—
(1) by redesignating paragraph (2) as paragraph (3); and
(2) by inserting after paragraph (1) the following new paragraph (2):
‘‘(2)(A) A person charged with having committed a child abuse
offense against a child is liable to be tried by court-martial if
the sworn charges and specifications are received before the child
attains the age of 25 years by an officer exercising summary courtmartial jurisdiction with respect to that person.
‘‘(B) In subparagraph (A), the term ‘child abuse offense’ means
an act that involves sexual or physical abuse of a person who
has not attained the age of 16 years and constitutes any of the
following offenses:
‘‘(i) Rape or carnal knowledge in violation of section 920
of this title (article 120).
‘‘(ii) Maiming in violation of section 924 of this title (article
124).
‘‘(iii) Sodomy in violation of section 925 of this title (article
126).
‘‘(iv) Aggravated assault or assault consummated by a battery in violation of section 928 of this title (article 128).
‘‘(v) Indecent assault, assault with intent to commit murder,
voluntary manslaughter, rape, or sodomy, or indecent acts or
liberties with a child in violation of section 934 of this title
(article 134).’’.
SEC. 552. CLARIFICATION OF BLOOD ALCOHOL CONTENT LIMIT FOR
THE OFFENSE UNDER THE UNIFORM CODE OF MILITARY
JUSTICE OF DRUNKEN OPERATION OF A VEHICLE, AIRCRAFT, OR VESSEL.

Section 911 of title 10, United States Code (article 111 of
the Uniform Code of Military Justice), is amended—

VerDate 11-MAY-2000

13:46 Dec 05, 2003

Jkt 029139

PO 00136

Frm 00091

Fmt 6580

Sfmt 6581

E:\PUBLAW\PUBL136.108

APPS10

PsN: PUBL136

